Department of Health and Human Services

                     OFFICE OF
                INSPECTOR GENERAL




    INDIANA CLAIMED MEDICAID
 REIMBURSEMENT FOR HIGH-DOLLAR
  INPATIENT SERVICES THAT WERE
          UNALLOWABLE


    Inquiries about this report may be addressed to the Office of Public Affairs at
                             Public.Affairs@oig.hhs.gov.




                                                     Gloria L. Jarmon
                                                  Deputy Inspector General

                                                       September 2013
                                                        A-05-11-00040
                           Office of Inspector General
                                            https://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is to
protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the health
and welfare of beneficiaries served by those programs. This statutory mission is carried out through a
nationwide network of audits, investigations, and inspections conducted by the following operating
components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with its
own audit resources or by overseeing audit work done by others. Audits examine the performance of HHS
programs and/or its grantees and contractors in carrying out their respective responsibilities and are intended to
provide independent assessments of HHS programs and operations. These assessments help reduce waste,
abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress, and
the public with timely, useful, and reliable information on significant issues. These evaluations focus on
preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of departmental
programs. To promote impact, OEI reports also present practical recommendations for improving program
operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50 States
and the District of Columbia, OI utilizes its resources by actively coordinating with the Department of Justice
and other Federal, State, and local law enforcement authorities. The investigative efforts of OI often lead to
criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In connection
with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG renders advisory
opinions, issues compliance program guidance, publishes fraud alerts, and provides other guidance to the
health care industry concerning the anti-kickback statute and other OIG enforcement authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at https://oig.hhs.gov



 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.


OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                    EXECUTIVE SUMMARY


 Indiana claimed approximately $1 million in Federal reimbursement for unallowable high-
 dollar payments that it made to hospitals for inpatient services.


WHY WE DID THIS REVIEW

The Indiana Office of Medicaid Policy and Planning (State agency) uses a prospective payment
system to claim Medicaid reimbursement for inpatient service costs based on the charges that a
hospital submits to the State agency. When a hospital’s charges exceed predetermined charge
thresholds, the State agency makes what is known as an outlier payment. Outlier payments are
intended to protect hospitals against large financial losses associated with high-cost cases.
Because of these outlier payments, extraordinarily high-cost cases generally result in high-dollar
Medicaid payments. Previous Office of Inspector General reviews found a high occurrence of
erroneous Medicaid payments associated with high-dollar inpatient service claims reimbursed by
the States.

The objective of this review was to determine the allowability of certain high-dollar Medicaid
payments that the State agency made to hospitals for inpatient services.

BACKGROUND

In Indiana, the State agency administers the Medicaid program. Federal reimbursement is
authorized to cover part or all of the cost of services furnished as medical assistance under a
State Medicaid plan (State plan). Improper payments to hospitals are not allowable for Federal
reimbursement under the State plan. Therefore, Federal reimbursements in cases of improper
payments constitute overpayments and are unallowable.

HOW WE CONDUCTED THIS REVIEW

We selected 250 inpatient claims with payments of $200,000 or more, totaling $82,146,682
($50,332,915 Federal share), for services provided during the audit period of January 1, 2006,
through December 31, 2009, and reviewed the charges related to those payments.

WHAT WE FOUND

The State agency claimed Federal Medicaid reimbursement for high-dollar claims that were
unallowable. Of the 250 high-dollar Medicaid payments that the State agency made to hospitals
for inpatient service claims during the audit period, 20 were allowable. The remaining 230
payments (92 percent) were unallowable. The State agency recalculated the payment amounts
for the claims that we determined had erroneous charges, resulting in overpayments totaling
$1,556,964 ($998,466 Federal share). The overpayments occurred because hospitals reported
incorrect charges. Hospital officials attributed the incorrect charges primarily to data entry
errors.


Indiana Claimed Unallowable High-Dollar Medicaid Payments (A-05-11-00040)                         i
WHAT WE RECOMMEND

We recommend that the State agency:

    •   refund $998,466 to the Federal Government and

    •   use the results of this audit in its provider education activities related to data entry
        procedures.

AUDITEE COMMENTS

In comments on our draft report, the State agency generally agreed with our recommendations.
The State agency explained that it has a policy of not allowing undercharges that are identified as
a result of certain audits and said that we agreed with this policy. The State agency has
implemented procedures to recover the overpayments by reducing future claim payments to the
providers that received overpayments, and it will publish a provider bulletin with a summary of
the audit findings.

OIG RESPONSE

We continue to recommend that the State agency refund $998,466 to the Federal Government.
We do not agree that “OIG agreed to the State’s approach of excluding underpayments.” We
applied Federal requirements, which allow for netting of underpayments. We did not apply the
State-specific policy regarding the exclusion of underpayments. Thus, we have no opinion on
Indiana’s policy of excluding underpayments.




Indiana Claimed Unallowable High-Dollar Medicaid Payments (A-05-11-00040)                          ii
                                                     TABLE OF CONTENTS

INTRODUCTION ....................................................................................................................1

           Why We Did This Review ...........................................................................................1

           Objective .......................................................................................................................1

           Background ...................................................................................................................1
                 The Medicaid Program: How It Is Administered ............................................1
                 Payments for High-Dollar Medicaid Claims ....................................................1
                 Indiana’s Medicaid Program: How It Is Administered ....................................2

           How We Conducted This Review.................................................................................2

FINDING .................................................................................................................................. 2

RECOMMENDATIONS ..........................................................................................................3

AUDITEE COMMENTS…………………………………………………………………..…3

OIG RESPONSE……………………………………………………………………………...3

APPENDIXES

           A: Audit Scope and Methodology ............................................................................... 4

           B: Federal and State Requirements for Medicaid Inpatient Services .......................... 6

           C: Auditee Comments .................................................................................................. 7




Indiana Claimed Unallowable High-Dollar Medicaid Payments (A-05-11-00040)                                                                       iii
                                               INTRODUCTION

WHY WE DID THIS REVIEW

The Indiana Office of Medicaid Policy and Planning (State agency) uses a prospective payment
system to claim Medicaid reimbursement for inpatient service costs based on the charges that a
hospital submits to the State agency. When a hospital’s charges exceed predetermined charge
thresholds, the State agency makes what is known as an outlier payment. 1 Outlier payments are
intended to protect hospitals against large financial losses associated with high-cost cases.
Because of these outlier payments, extraordinarily high-cost cases generally result in high-dollar
Medicaid payments. Previous Office of Inspector General reviews found a high occurrence of
erroneous Medicaid payments associated with high-dollar inpatient service claims reimbursed by
the States. 2

OBJECTIVE

The objective of this review was to determine the allowability of certain high-dollar Medicaid
payments that the State agency made to hospitals for inpatient services.

BACKGROUND

The Medicaid Program: How It Is Administered

The Medicaid program provides medical assistance to low-income individuals and individuals
with disabilities. The Federal and State Governments jointly fund and administer the Medicaid
program. At the Federal level, the Centers for Medicare & Medicaid Services (CMS)
administers the program. Each State administers its Medicaid program in accordance with a
CMS-approved State plan. Although the State has considerable flexibility in designing and
operating its Medicaid program, it must comply with Federal requirements. The State agency is
responsible for administering Indiana’s Medicaid program.

Payments for High-Dollar Medicaid Claims

Attachment 4.19-A of the State plan describes the prospective payment system for inpatient
hospital services. Under the prospective payment system, the State agency pays hospital costs at
predetermined rates for patient discharges. The rates vary according to the diagnosis-related
group (DRG) to which a beneficiary’s stay is assigned. The DRG payment is, with certain

1
 In Indiana, there are two types of outlier payments: (1) cost outlier payments and (2) day outlier payments for
certain hospital admissions for children. For this review, we use the term “outlier payment” to refer to both types.
2
 U.S. Department of Health and Human Services, Office of Inspector General, report number A-05-09-00048
entitled Review of Medicaid High-Dollar Payments for Inpatient Services in Illinois From January 1, 2006, Through
September 30, 2007 – Hospitals With Fewer Than Five High-Dollar Payments, issued on May 21, 2010, and report
number A-05-09-00049 entitled Review of Medicaid High-Dollar Payments for Inpatient Services in Illinois From
January 1, 2006, Through September 30, 2007 – Hospitals with Five or More High-Dollar Payments, issued on
December 20, 2010.


Indiana Claimed Unallowable High-Dollar Medicaid Payments (A-05-11-00040)                                              1
exceptions, payment in full to the hospital for all inpatient costs associated with the beneficiary’s
stay. One of these exceptions is an outlier payment.

Outlier payments are made to hospitals for covered inpatient services furnished to a Medicaid
beneficiary if the hospital’s charges, as adjusted by the hospital-specific cost-to-charge ratio,
exceed the DRG payment by a predetermined threshold as defined by the State plan. Thus, for
high-dollar Medicaid claims, the State agency pays the DRG payment plus an outlier payment
when necessary.

Indiana’s Medicaid Program: How It Is Administered

The State agency’s Medicaid program provides certain medical services, including inpatient
hospital services. Indiana pays for inpatient services using a prospective payment system that
includes an outlier payment for high-dollar claims. The State agency processes hospital inpatient
service claims through the Medicaid Management Information System. 3

HOW WE CONDUCTED THIS REVIEW

Our review covered the State agency’s claims for Medicaid reimbursement during calendar years
(CYs) 2006 through 2009. During this period, the State agency claimed $1,544,668,030 for
inpatient service claims. We reviewed all 250 Medicaid inpatient service claims with payments
of $200,000 4 or more, which totaled $82,146,682 ($50,332,915 Federal share). We tested the
charges associated with the 250 claims and presented the results of our review to the State
agency. The State agency recalculated the payment amounts for the claims that we determined
had erroneous charges.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.

Appendix A contains the details of our audit scope and methodology. Appendix B contains the
Federal and State requirements for Medicaid inpatient services.

                                                    FINDING

The State agency claimed Federal Medicaid reimbursement for high-dollar claims that were
unallowable. Of the 250 high-dollar Medicaid payments that the State agency made during



3
  The Medicaid Management Information System is a mechanized claims processing and information retrieval
system that States are required to use to record Title XIX program and administrative costs, report services to
recipients, and report selected data to CMS.
4
    We considered claims with payment amounts of $200,000 or more high-dollar claims for this review.



Indiana Claimed Unallowable High-Dollar Medicaid Payments (A-05-11-00040)                                         2
CYs 2006 through 2009 to hospitals for inpatient services, 20 were allowable. The remaining
230 payments (92 percent) were unallowable. The State agency recalculated the payment
amounts for the claims that we determined had erroneous charges, resulting in overpayments
totaling $1,556,964 ($998,466 Federal share). The overpayments occurred because hospitals
reported incorrect charges. Hospital officials attributed the incorrect charges primarily to data
entry errors. For example, one inpatient hospital claim contained an overcharge of $81,588
because a nitric oxide charge was entered for each hour it was used, when it was actually a daily
rate. The erroneous charges led to a $15,410 overpayment ($9,648 Federal share).

                                     RECOMMENDATIONS

We recommend that the State agency:

    •   refund $998,466 to the Federal Government and

    •   use the results of this audit in its provider education activities related to data entry
        procedures.

AUDITEE COMMENTS

In comments on our draft report, the State agency generally agreed with our recommendations.
The State agency explained that it has a policy of not allowing undercharges that are identified as
a result of certain audits and said that we agreed with this policy. The State agency has
implemented procedures to recover the overpayments by reducing future claim payments to the
providers that received overpayments, and it will publish a provider bulletin with a summary of
the audit findings.

The State agency’s comments are included in their entirety as Appendix C.

OIG RESPONSE

We continue to recommend that the State agency refund $998,466 to the Federal Government.
We do not agree that “OIG agreed to the State’s approach of excluding underpayments.” We
applied Federal requirements, which allow for netting of underpayments. We did not apply the
State-specific policy regarding the exclusion of underpayments. Thus, we have no opinion on
Indiana’s policy of excluding underpayments.




Indiana Claimed Unallowable High-Dollar Medicaid Payments (A-05-11-00040)                          3
                    APPENDIX A: AUDIT SCOPE AND METHODOLOGY

SCOPE

We selected and reviewed 250 inpatient claims with payments of $200,000 or more, totaling
$82,146,682 ($50,332,915 Federal share), for services provided from January 1, 2006, through
December 31, 2009.

We limited our review of the State agency’s internal controls to those that related to our audit
objective. This review allowed us to establish a reasonable assurance of the authenticity and
accuracy of the data obtained from CMS’s Medicaid Statistical Information System, but we did
not assess the completeness of the data. 5

Our fieldwork was conducted from May 2011 through November 2012 and included contacting
the State agency in Indianapolis, Indiana, and the 38 hospitals that received the selected
Medicaid payments.

METHODOLOGY

To accomplish our objective, we:

    •   reviewed applicable Federal and State laws, regulations, guidance, and the
        CMS-approved State plan;

    •   interviewed State agency officials to gain an understanding of how the State agency
        processed and adjusted claims for inpatient services;

    •   requested all high-dollar claim data for inpatient hospital services provided during the
        audit period from Indiana’s Medicaid Statistical Information System file (250 claims
        from 38 hospitals);

    •   contacted the State agency to determine whether the 250 high-dollar claims had been
        canceled or superseded by revised claims, whether payments remained outstanding at the
        time of our fieldwork, and whether the State agency received Federal reimbursements for
        the claims;

    •   contacted the 38 hospitals that received payments for the 250 high-dollar claims and
        requested assessments as to whether the charges originally reported on each of the claims
        were correct and, if not, why the claims were incorrect;

    •   reviewed supporting documentation received from the hospitals to verify the hospitals’
        assessment of the selected claims;

5
  The Balanced Budget Act of 1997 (P.L. No. 105-33) requires that all State Medicaid programs submit claims and
eligibility data to CMS. CMS’s Medicaid Statistical Information System is the repository for this data.


Indiana Claimed Unallowable High-Dollar Medicaid Payments (A-05-11-00040)                                         4
    •   summarized and submitted to the State agency information regarding our review of
        submitted charges and related correspondence that we received from the hospitals;

    •   requested that the State agency recalculate the payment amounts for the claims that we
        determined had erroneous charges; and

    •   provided the results of our review to State agency officials on October 16, 2012.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.




Indiana Claimed Unallowable High-Dollar Medicaid Payments (A-05-11-00040)                        5
               APPENDIX B: FEDERAL AND STATE REQUIREMENTS FOR
                         MEDICAID INPATIENT SERVICES

FEDERAL REQUIREMENTS

Improper payments to providers are not allowable for Federal reimbursement under the State
plan within the meaning of sections 1903(a)(1) and 1905(a) of the Social Security Act (the Act).
Federal reimbursement is authorized to State Medicaid agencies for expenditures that constitute
payment for part or all of the cost of services furnished as medical assistance under the State
plan. Therefore, Federal funding in cases of improper payments constitutes overpayments that
must be adjusted under section 1903(d)(2)(A) of the Act.

Federal regulations (42 CFR § 433.312(a)(2)) require a State to refund the Federal share of
unallowable overpayments made to Medicaid providers.

STATE REQUIREMENTS

Attachment 4.19-A provides an overview of reimbursement to hospitals for Medicaid inpatient
services. A hospital may be paid a DRG payment amount plus an additional day6 or cost outlier
payment. Attachment 4.19-A of the State plan also provides that each in-State hospital may
receive an additional inpatient Medicaid outlier payment adjustment for cases incurring
extremely high costs. A Medicaid stay that exceeds a predetermined threshold, defined as the
greater of twice the DRG rate or the outlier threshold, is a cost outlier case. The calculation for
outlier payment amounts is made by multiplying the overall facility cost-to-charge ratio by
submitted charges. The outlier payment is equal to the marginal cost factor multiplied by the
difference between the prospective cost per stay and the greater of the DRG rate or the outlier
threshold amount.

Pursuant to Attachment 4.19-A of the State plan, each facility that submits an Indiana Medicaid
cost report will receive a cost-to-charge ratio. The cost-to-charge ratio will be computed from
claim data and will be used to determine applicable cost outlier payments. Facilities with less
than 30 Medicaid claims annually will be given the statewide median cost-to-charge ratio. The
outlier payment adjustment will be made annually after the State agency has computed the
payment under this methodology.




6
 A day outlier payment is available upon a hospital’s request for children under 6 years of age in disproportionate
share hospitals and for children under age 1 in all hospitals (§ 1902(s) of the Act).



Indiana Claimed Unallowable High-Dollar Medicaid Payments (A-05-11-00040)                                         6
                                 APPENDIX C: AUDITEE COMMENTS 



                                                                                                 Michael R. Pence, Governor
                                                                                                             State of Indiana

                                                                                Office ofMedicai d Policy am/ Plan ning
                                    " People
                                                                         MS 07, 402 W. WASHINGTON STREET, ROOM W382
                                      helping people
                                      help 
                                                INDIANAPOLIS, IN 46204-2739
                                     themselves• 





             August 16, 2013

             Ms. Sheri L. Fulcher
             Regional Inspector General
             Office of Audit Services, Region V
             Department ofHcall.h and Human Services
             Office of Inspector General
             233 No1ih Michigan, Suite 1360
             Chicago, IL 60601


             Re: OIG Report No. A-05- 11-00040

             Dear Ms. Fulcher,

                     'TI1e Indiana Office of Medicaid Policy and Planning ("OMPP") appreciates the
             opportunity to comme nt on the draft repo11 of the Office of the Inspector General ("OIG")
             entitled "Indiana Claimed Medicaid Reimbursement for High-Dollar Inpatient Services That
             Were Unallowable", Report No . A-05-11-00040, dated July 17, 2013 and rece ived by the State
             on July 19, 2013 ("Audit Report"). The OIG audit e ncompassed inpatient claims with payments
             of $200,000 or more, for services provided during the period of January 1, 2006 through
             December 31 , 2009. The OIG found that 230 of 250 high-dollar Medicaid payments, for which
             the State claimed Federal Medicaid reimbursement, were paid incorrectly due to provider
             submitted erroneous charges.

                      In April 2012, the OIG provided the State with a spreadsheet containing two lllmdred
             fifty (250) claims included in OIG audit A-05-11-00040. 111is spreadsheet aL~o included a
             column for the net over and/or undercharges identified by the individual providers and verified
             by the OIG. Given the information supplied in this spreadsheet, the State and its contractor(s) re­
             priced the claims based solely on the net o ver and/ or undercharges reported (i.e. , all other claim
             information remained constant) in order to determiJte any potential overpayments due fi·om
             providers. Potential overpayments were identified by subtracting the re-priced Indiana Medicaid
             payment fi·om the original Indiana Medicaid payment received by providers on the originally
             submitted claim after any and all claim adjustments or voids were taken into cons ideration. The
             res ulting estimated total overpayment amount identified for aU 250 claims invol ved in the audit
             was $1,556,964 (ofwhich, $998,466 is the estimated Federal share).




                                                            www.IN .gov/fssa 

                                                Equal Oppatunity/Affirmative Action Employer 





JndiCOla Claimed Unallowable High-Dollar .Medicaid Payments (A-05-11-00040)                                                     7
                     Due to the State's policy of not allowing undercharges that are identified as a result of
             OMPP Surveillance and Utilization Review (SUR) audits to be paid to provider's beyond the
             claim filing limit (whereas the OIG considers both over and undercharges), it was detennined
             that two (2) di:Jferent methodologies would be required in order to estimate and report any
             overpayments due from providers. After discussion between the State and the OIG regarding
             this issue, the OlG supplied a revised spreadsheet with an additional colurru1 identifying
             overcharges only. The State and its contractor(s) subsequently re-priced the claims based solely
             on the overcharges reported (i.e. , all other claim information remained constant) in order
             to detennine any potential overpayments due from providers. Potential overpayments were
             again identified by subtracting the r e-priced Indiana Medicaid payment from the original Indiana
             Medicaid payment received by providers on the originally submitted claim after any and all
             adj ustments or voids were taken into considerat ion. TI1e estinHt:ted total overpayment amount
             identified for all 250 claims involved in this audit is $2,421,719 (of which, $1 ,552,258 is the
             estimated Federal share). 111e State provided the results of both re-pricing methodologies to the
             OIG for review and ap proval. Upon fi1rther discussion, the OIG agreed to the State's approach
             of excluding underpayments identified as a result ofOMPP Survei llance and Utilization Review
             (SUR) audits to be paid to provider's beyond the claim filing limit and inclusion in the
             calculation of overpayments due fr·om the providers.

                      On October 29, 2012, based on the information s upplied by the OIG and the re-pricing
             calculations completed by the State and its contractor(s), the OMPP sent out either a Draft Audit
             Findings (DAF) letter or a Final Audit Findings (F AF) letter to the thirty-eight (38) providers
             included within the OIG audit. In the DAf letters, providers were informed ofthe identified
             potential errors and were asked to complete certain claim adj ustment request fonns, as
             documented in the IHCP Provider Manual, and submit the completed fonn(s) to the OMPP SUR
             Depruiment. In instances in which the provider agreed with the draft audit fmdings
             and submitted the appropriate claim adjustment information, the State and its
             contractor(s) have reviewed and s ubmitted the requests to the State's fiscal agent for processing.
             Once these claims are fully adjudicated through the c laims processing system, a Final
             Calculation of Overpayment (FCO) letter is issued to the provider stating that OMPP
             acknowledges that the provider has elected, via the claims adjustment process, to have the
             principle overpayment amount deducted from future Indiana Medicaid payments (which may
             already have occurred) and outlines ru1y remaining interest that may be due (to be paid via
             check) .

                     In instances in which the provider has disagreed with the draft audit findings and
             requested administrative recons ideration, the State is also working wit h these providers to
             finalize the audit findi ngs. In these instances, a Response to Request for Admin istrative
             Reconsideration letter is prepared again outlining the audit fmdings and addressing any issues
             and/or concerns raised by the provider iu their response to the Draft Audit Findings. Providers
             are again asked to submit the appropriate adjustment information in order for the claims to be
             adj usted to accurate ly reflect the con·ect billed charges amount. The State is continuing to work
             with providers on submitting the appropriate cla im adjustment information in order to finalize
             these audits. As of July 22, 2013, the OMPP has collected $460, 134.37 (with an estimated
             Federal s hare of $308,256 in overpayments, including interest, from thirteen (13) providers
             identified in this review). Ofthe remaining 25 providers identified: three (3) provider cases are




JndiCOla Claimed Unallowable High-Dollar .Medicaid Payments (A-05-11-00040)                                        8
            on hold by recommendation of the Indiana Medicaid Fraud Control Unit (with a total estimated
            overpayment of$11 0, 199.63; six (6) provider cases resulted in no overpayments identified upon
            validation of provider b illing; the State and its contractor(s) continues to correspond and work
            with the remaining 16 providers to faci litate proper claim reprocessing and repayment of the
            outstanding overpayments, as well as request providers to develop greater internal controls to
            minimize further instances ofinappropriate billings and promote increased internal auditing. It is
            the expectation of the State that the remaining overpayments will be processed and repaid by
            December 31 , 2013. OMPP will also publish a provider bulletin to the hospital provider
            community that summarizes the audit findings and the actions providers can take to minimize
            incorrect billings.

            The State appreciates your consideration ofthe information provided in this letter. lfyou have
            any questions or require add itional information, please contact James Waddick at 317-234-7484
            or James. Wadd ick@fssa.in.gov.

             Sincerely,



             Pa:A~~ ·
             Pat Nolting   (\
             Interim MedicaV Director




India na Claimed Unallowable Hig h-Dollar M edicaid Payments (A -05-1 I -00040)                                  9
